OIG Investigative Reports, Man Sentenced for Student Loan Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
FOR IMMEDIATE RELEASE:
Indianapolis, Indiana, June 29, 2001
Contact Person
TIMOTHY M. MORRISON
United States Attorney
(317) 226-6333
Man Sentenced for Student Loan Fraud
Timothy M. Morrison, United States Attorney for the Southern District of Indiana, announced that DAVID J. DEORIO, 41, presently detained in the Marion County Jail, was sentenced to 23 months imprisonment today by U.S. District Court Chief Judge Larry J. McKinney following his previously entered guilty plea to making false statements on a federally insured loan. This case was the result of an investigation by the Department of Education.
DAVID J. DEORIO, applied for over $350,000 in federally insured student loan funds by submitting eighteen Federal Family Education Loan applications to various guarantee agencies and lenders. DEORIO caused eleven of these eighteen FFEL applications to be mailed and/or wired to USA Group of Fishers (now Sallie Mae), in connection with his attendance at Oxford University and London Business School, both schools located in the United Kingdom. In eight of the eighteen applications, DAVID J. DEORIO falsely and fraudulently claimed to be enrolled as a student at either Oxford University or London Business School. On fourteen of the eighteen FFEL applications, school officials from Oxford University and London Business School verified that the school certification section on the loan application documents submitted to various guarantee agencies and lenders had been falsified. Additionally, DEORIO used false social security numbers on his applications.
According to Assistant United States Attorney James M. Warden, who prosecuted the case for the government, Judge McKinney also imposed 3 years supervised release following DEORIO's release from imprisonment. DEORIO was ordered to make restitution in the amount of $355,257.89.
Top
Printable view
Share this page
Last Modified: 03/02/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov